OIG Investigative Reports, Scarborough Man Sentenced in Federal Court for Failure to Make Student Loan Refunds
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
PRESS RELEASE:
Portland, ME February 28, 2003
Contact: James McCarthy:
Assistant U.S. Attorney
Tel.: (207) 945-0373
Scarborough Man Sentenced in Federal Court for Failure to Make Student Loan Refunds
Bangor, Maine: - United States Attorney Paula D. Silsby and Gary E. Mathison, Special Agent in Charge, United States Department of Education, Office of the Inspector General, Office of Investigation Services announced that on Wednesday, February 26, 2003, U.S. District Judge George Z. Singal sentenced Jeffrey P. Saleeby, 44, of Scarborough, Maine to six (6) months in the custody of the U.S. Bureau of Prisons, with one month to be served in prison and five (5) months of home confinement/electronic monitoring and a $2,000 fine, to be followed by 3 years of supervised release. Saleeby was also ordered by the Court to pay $13,433,79 in restitution to the Finance Authority of Maine (FAME).
Saleeby pled guilty on September 26, 2002 to one count of Failure to Make Student Loan Refunds between March 8, 1997 and July 8, 1997 to or on behalf of 15 former students of the Maine State Academy of Hair Design, Inc. and Maine Schools, Inc, in violation of Title 20 United States Code, Section 1097.
United States Attorney Silsby praised the investigative efforts of the agents of the U.S. Department of Education, Office of the Inspector General, Office of Investigation Services.
Top
Printable view
Share this page
Last Modified: 03/03/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov